No. 20-257
IN THE

Supreme Court of the United States
CHIPOTLE MEXICAN GRILL, INC.,
AND CHIPOTLE SERVICES, LLC,
Petitioners,
v.
MAXCIMO SCOTT, ET AL.,
Respondents.
Certificate of Compliance
As required by Supreme Court Rule 33.1(h), I certify that the Brief of the Chamber
of Commerce of the United States of America and the National Retail Federation as Amici
Curiae in Support of Petitioners contains 4906 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 1, 2020
/s/ Scott A. Keller
Scott A. Keller
Counsel of Record
BAKER BOTTS L.L.P.
700 K Street NW
Washington, DC 20001
(202) 639-7700
scott.keller@bakerbotts.com
Counsel for Amici Curiae

